              Office Of Inspector General




January 6, 2005

LYNN MALCOLM
ACTING VICE PRESIDENT, FINANCE, CONTROLLER

STEPHEN J. NICKERSON
ACTING MANAGER, ACCOUNTING

SUBJECT: Management Advisory – Imprest Fund at the Former Columbia,
         Maryland, Facilities Service Office (Report Number FT-MA-05-001)

This report presents the results of our review of an imprest fund at the former Columbia,
Maryland, Facilities Service Office (Project Number 04XD018FT000). The report
responds to a request from Postal Service Headquarters to review inactive imprest
funds and presents an issue concerning $1,470 in unaccounted funds, which will be
reported as questioned costs in our Semiannual Report to Congress. The request listed
eight imprest funds, totaling $17,400, for which personnel at Postal Service
Headquarters had not received sufficient responses regarding the status of the funds
from the responsible parties.1

                                 Objectives, Scope, and Methodology
Our objectives were to determine the status of the eight imprest funds and whether they
were adequately and effectively monitored. To do this, we judgmentally selected an
imprest fund with a recorded balance of $2,000, issued to the Columbia, Maryland,
Facilities Service Office. See Appendix A for further details on the background, scope,
and methodology of the review, and prior audit coverage.

                                                      Results

Monitoring of Imprest Funds Needed Improvement

Although the imprest fund associated with the Columbia, Maryland, Facilities Service
Office remained open in the Postal Service’s official records, the fund no longer existed
because the facility had been closed for two years. Additionally, San Mateo Accounting


1
    As of March 31, 2004, 95 imprest funds at various Postal Service locations accounted for $347,867.




      1735 N Lynn St
      Arlington, VA 22209-2020
      (703) 248-2100
      Fax: (703) 248-2256
Imprest Fund at the Former Columbia, Maryland,                                                         FT-MA-05-001
 Facilities Service Office


Service Center (ASC) personnel did not adequately monitor the imprest fund. This
occurred because a San Mateo ASC technician was not familiar with the requirement to
monitor, initiate action, or report on funds not maintained in accordance with Postal
Service policies and procedures. As a result, the Postal Service could not determine
what happened to $1,469.58 of the recorded $2,000 imprest fund.

Handbook F-20a, Accounting Service Center Guidelines, Chapter 7, requires
semiannual audits of imprest funds by a disinterested third party. If the examinations
are not done, Handbook F-19, Accountability of Disbursing Officers, Chapter 8, requires
the San Mateo ASC to notify those responsible of the audit requirements. If
management takes no action, the ASC must forward delinquency reports to Postal
Service Headquarters. Handbook F-19, Chapter 8, also requires, at fiscal year-end, all
cashiers prepare Postal Service (PS) Form 1129, Cash Reimbursement Voucher and/or
Accountability Report, for all expenditures made during the fiscal year (FY) and not
previously claimed. These forms must be processed in the same manner as other
reimbursements.

We visited the former site but could not locate any records for the fund. We contacted
personnel at Postal Service Headquarters Facilities in an effort to obtain information on
the fund. We received documentation showing the fund was closed, including a copy of
a check for $530.42 representing unspent funds deposited to a Postal Service account
by the Eagan ASC and a letter to the Eagan ASC requesting the account be closed.
However, the Manager could not provide any other documentation for the disposition of
the remaining $1,469.58 of the recorded $2,000 balance.2 See Appendix B for a
description of the monetary impact.

San Mateo ASC personnel did not adequately monitor the status of this imprest fund
account. For example, the San Mateo ASC had documentation showing that $530.42 of
the $2,000 Columbia, Maryland, imprest fund was returned and deposited; however, the
ASC did not record the transaction in its imprest fund records or follow up to determine
the status of the rest of the fund. In addition, ASC personnel did not ensure required
audits of the imprest funds were performed. Further, ASC personnel did not address
the issue of fund custodians who did not submit PS Forms 1129, describing
expenditures made during the fiscal year and not previously claimed. Consequently,
the San Mateo ASC records continued to show a $2,000 balance for the Columbia,
Maryland, Facilities Services Office imprest fund, two years after the facility was closed.
Since $1,469.58 remains unaccounted for, we have referred this matter to our Office of
Investigations. Because of the issues identified with the Columbia, Maryland, Facilities
Service Office, we did not review the status of the other seven imprest funds.




2
 A Facilities headquarters individual contacted the former cashier, who told him the documents were sent to the
Eastern Facilities Service Office in Greensboro, North Carolina. He also contacted the Eastern Facilities Service
Office, but the office could not locate any related documentation.


                                                          2
Imprest Fund at the Former Columbia, Maryland,                                 FT-MA-05-001
 Facilities Service Office


Recommendation

We recommend the Acting Manager, Accounting:

1. Provide training to appropriate personnel regarding their responsibility to adequately
   monitor imprest fund accounts, which includes receiving and processing
   PS Forms 1129, Cash Reimbursement Voucher and/or Accountability Report, for
   each fund at fiscal year-end; ensuring required audits are conducted; and, if
   management takes no action, notifying Postal Service Headquarters of the
   delinquency.

Management’s Comments

Management agreed with the recommendation and stated it is implementing corrective
actions. The San Mateo ASC is confirming the balances of all imprest funds.
Management will review procedures with personnel with respect to monitoring the funds
and processing information. Completion is expected in the second quarter of fiscal year
(FY) 2005. Management’s comments, in their entirety, are included in Appendix C of
this report.

Recommendation

2. Adjust Postal Service records, as appropriate, to account for the disposition of the
   fund, to include the $530.42 deposited and $1,469.58 currently missing.

Management’s Comments

Management agreed with the recommendation and adjusted Postal Service records in
November 2004 to reflect the closing of the Columbia, Maryland, Facilities Service
Office fund and the subsequent deposit of monies.

Evaluation of Management’s Comments

Management’s comments are responsive to recommendations 1 and 2, and actions
taken and planned should correct the issues identified in the finding.

Disposition of Remaining Imprest Funds

We commend Postal Service Headquarters personnel for making several attempts to
determine the disposition of all inactive imprest funds. However, for the
seven remaining funds, totaling $15,400, in which responses were not provided, Postal
Service personnel ultimately discontinued efforts to determine the status of the funds.
We believe the Postal Service should continue contacting personnel up the responsible
officials’ chain-of-command until a response is provided detailing the status of the funds.



                                                 3
Imprest Fund at the Former Columbia, Maryland,                             FT-MA-05-001
 Facilities Service Office


Recommendation

We recommend the Acting Vice President, Finance, Controller:

3. Contact appropriate supervisory personnel, including Postal Service Vice Presidents
   if necessary, for the status of the remaining seven imprest funds for which Postal
   Service Headquarters personnel received no response. As appropriate, adjust
   Postal Service records based on the supporting documentation received.

Management’s Comments

Management agreed with the recommendation and stated it has contacted staff of the
appropriate Area Finance Managers to resolve the matter. Completion is expected in
the second quarter of FY 2005.

Evaluation of Management’s Comments

Management’s comments are responsive to the recommendation, and actions taken
and planned should correct the issues identified in the finding.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact John E. Cihota, Director,
Financial Statements, or me at (703) 248-2300.

/s/ John M. Seeba

John M. Seeba
Assistant Inspector General
 for Audit

Attachment

cc: Richard J. Strasser, Jr.
    Rudolph K. Umscheid
    Kevin T. McNamara
    Russell W. Clark
    Steven R. Phelps




                                                 4
Imprest Fund at the Former Columbia, Maryland,                                                    FT-MA-05-001
 Facilities Service Office



                                             APPENDIX A

Background
The Postal Service established imprest funds at facilities that do not generate revenue
through the sale of postage or Postal Service products. Imprest funds may be used to
pay for items such as rubber stamps, books, hardware, minor technical and special
supplies, minor repairs to equipment, and other miscellaneous items when other
purchasing means are not suitable. The Vice President, Finance, Controller, is the
approval authority for all imprest fund requests. If approved, the Manager, Accounting,
advises the Manager, San Mateo ASC, to establish the fund. Handbook F-19,
Chapter 8, and Handbook F-20a provide guidance for establishing, replenishing, and
controlling the funds and to employees seeking advances and reimbursements for
expenses incurred in their duties.

Scope and Methodology

In FY 2004, Postal Service Headquarters personnel tried to contact individuals
responsible for 16 inactive imprest funds, based on a report received from the
San Mateo ASC. Headquarters personnel did not receive responses sufficient to
determine the status of 8 of the 16 funds, totaling $17,400, and, subsequently,
requested assistance from the Office of Inspector General (OIG) in this matter. From
the list of eight funds, we judgmentally selected the $2,000 fund belonging to the
Columbia, Maryland, Facilities Service Office because of its proximity to the OIG team
conducting the review. In addition, the site had been closed since 2002.

To accomplish our objectives, we interviewed Postal Service employees, reviewed
records maintained at Postal Service Headquarters, and examined documentation from
the San Mateo and Eagan ASCs. Our review was conducted from April 2004 through
January 2005 in accordance with the President’s Council on Integrity and Efficiency,
Quality Standards for Inspections. We discussed our observations and conclusions with
management officials and included their comments, where appropriate.

Prior Audit Coverage

We audited imprest funds as part of the FYs 1999 and 2001 financial statement audits
of the San Mateo ASC and noted no significant issues.3 We also reviewed imprest
funds as part of our FYs 2003 and 2004 protective review programs.4 However, the
fund at the Columbia, Maryland, Facilities Services Office was not selected for review.

3
  Report Number FR-AR-00-007, Fiscal Year 1999 Postal Service Financial Statement Audit – San Mateo Information
Service Center, February 25, 2000, and FT-AR-02-009, Fiscal Year 2001 Postal Service Financial Statement Audit -
San Mateo Information Technology and Accounting Service Center, February 12, 2002.
4
  Report Number FT-MA-04-003, Fiscal Years 2003 and 2004 Protective Reviews Capping Report, August 12, 2004.


                                                       5
Imprest Fund at the Former Columbia, Maryland,                                                                           FT-MA-05-001
 Facilities Service Office



                               APPENDIX B. DESCRIPTION OF MONETARY IMPACT

                        Finding                                                       Questioned Costs
                                                              Total Questioned Cost
   Recommendation No.                  Title                                                             Unsupported Costs
                          Adjust Postal Service
                          records to account for the
                          disposition of the fund, to
                          include the $530.42
             2            deposited and $1,469.58                     $1,470                                  $1,470
                          currently missing.
                         Totals                                       $1,470                                  $1,470

                                                        The $1,470 of monetary impact represents questioned costs since the
                                                        amount is unsupported. This is the result of Postal Service not being able
                      Description                       to provide sufficient documentation, from its accounting records, for the
                                                        disposition of the remaining $1,470 of the recorded $2,000 imprest fund
                                                        balance at the Columbia, Maryland, Facilities Service Office.

                                                        The $1,470 is the unaccounted balance remaining after the deposit of $530
                  Calculation of basis                  in unspent funds is deducted from the $2,000 imprest fund recorded
                                                        balance in the accounting records.

                                                        There are no implementation costs as long as the Postal Service monitors
                  Implementation costs                  the imprest fund in accordance with its policies and procedures.




                                                                         6
Imprest Fund at the Former Columbia, Maryland,        FT-MA-05-001
 Facilities Service Office


                  APPENDIX C. MANAGEMENT’S COMMENTS




                                                 7
Imprest Fund at the Former Columbia, Maryland,       FT-MA-05-001
 Facilities Service Office




                                                 8
